2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

Le g al Briefs E-Mail Address:

contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-7
SEILA LAW LLC,
Petitioner,

ve
CONSUMER FINANCIAL PROTECTION BUREAU,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 29th day of July, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE SOUTHEASTERN LEGAL
FOUNDATION AND NATIONAL FEDERATION OF INDEPENDENT BUSINESS SMALL BUSINESS LEGAL CENTER
IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by Priority
Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:

KAREN R. HARNED KIMBERLY S. HERMANN
LUKE A. WAKE Counsel of Record
NFIB SMALL BUSINESS SOUTHEASTERN LEGAL
LEGAL CENTER FOUNDATION
1201 F St., NW, Ste. 200 560 W. Crossville Rd., Ste. 104
Washington, D.C. 20004 Roswell, GA 30075

(770) 977-2131

khermann@

southeasternlegal.org

Counsel for Amici Curiae

Subscribed and sworn to before me this 29th day of July, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . Mitt & Chk
State of Nebraska . ,

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38336
Seila Law LLC v. Consumer Financial Protection Bureau
U.S. Supreme Ct. No. 19-7
Service List

Attorney for Petitioner, Seila Law LLC:
Kannon K. Shanmugam

Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, N.W.

Washington, DC 20006

(202) 223-7300

kshanmugam@paulweiss.com

Attorney for Respondent, Consumer Financial Protection Bureau:
Noel J. Francisco, Solicitor General

United States Department of Justice

Room 5616

950 Pennsylvania Avenue, NW

Washington, DC 20530-0001

(202) 514-2217

SupremeCtBriefs@USDOJ.gov
